      AUDIT REPORT

   COSTS INCURRED BY THE
     STATE OF NEBRASKA
GAME AND PARKS COMMISSION,
 UNDER FEDERAL ASSISTANCE
      GRANTS FROM THE
    U.S. FISH AND WILDLIFE
  SERVICE FROM JULY 1, 2000,
    THROUGH JUNE 30, 2002




       Report No. R-GR-FWS-0024-2003
                      JANUARY 2004
                United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                                   External Audits Division
                             12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191
                                                                                 January 9, 2004

                                   AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on Costs Incurred by the State of Nebraska Game and Parks
           Commission, under Federal Assistance Grants from the U.S. Fish and Wildlife
           Service from July 1, 2000, through June 30, 2002 (No. R-GR-FWS-0024-2003)

                                         Introduction
      This report presents the results of our audit of costs incurred by the State of Nebraska
Game and Parks Commission (Commission) under Federal Assistance grants from the U.S. Fish
and Wildlife Service (FWS) for the period July 1, 2000, through June 30, 2002.

Background and Scope
        The Pittman-Robertson Wildlife Restoration Act, as amended (16 U.S.C. 669), and the
Dingell-Johnson Sport Fish Restoration Act, as amended (16 U.S.C. 777) (Acts), authorize FWS
to provide Federal Assistance grants to states to enhance their sport fish and wildlife programs.
The Acts provide for FWS to reimburse the states up to 75 percent of the eligible costs incurred
under the grants. The Acts specify that state hunting and fishing license revenues cannot be used
for any purpose other than the administration of the state’s fish and game agencies.

        We performed an audit of Federal Assistance grants to the State of Nebraska at the
request of FWS. The objective of our audit was to evaluate: (1) the adequacy of the
Commission’s accounting system and related internal controls; (2) the accuracy and eligibility of
the direct and indirect costs claimed under the Federal Assistance grant agreements with FWS;
(3) the adequacy and reliability of the Commission’s hunting and fishing license fee collection
and disbursement process; (4) the adequacy of the Commission’s asset management system and
related internal controls with regard to purchasing, maintenance, control, and disposal; and
(5) the adequacy of the Commission’s compliance with the Acts’ assent legislation requirements.
The audit was also to include a review of other issues considered sensitive and/or significant by
the FWS. The audit included claims totaling approximately $16.2 million on FWS grants that
were open during the State’s fiscal years ended June 30, 2001, and 2002 (see Appendix 1).

        Our audit was performed in accordance with the government auditing standards issued by
the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Commission to the grants and interviews with employees to ensure that all personnel costs
charged to the grants were allowable. We reviewed the audit work performed by other auditors,
including the working papers and summaries for the Commission's (1) certification of hunting
and fishing license holders for fiscal years 2001 and 2002, and (2) use of fishing and hunting
license revenues for fiscal years 2001 and 2002 to determine whether the revenues had been used
for program purposes. No exceptions were reported. We did not evaluate the economy,
efficiency, and effectiveness of the Commission’s operations.

       Our audit was performed at the Nebraska Game and Parks Commission headquarters in
Lincoln, Nebraska. We also visited a hatchery and several wildlife management areas (see
Appendix 2).

Prior Audit Coverage
        On August 4, 1999, we issued audit report No. 99-E-726, “Audit of U.S. Fish and
Wildlife Service Federal Aid Grants to the State of Nebraska Game and Parks Commission for
the Fiscal Years Ended June 30, 1996, and 1997.” We reviewed this report and followed up on
all findings to determine whether they had been resolved prior to our review. We included one
area in this report that had been addressed previously, program income from crops. No other
reports on the Commission’s Federal Aid program or license fee collections and disbursements
were issued during the last five years.

                                    Results of Audit
        Our review disclosed that, except for the conditions reported below, the Commission’s
accounting system and related internal controls adequately and accurately accounted for grant
and license fee receipts and disbursements; direct and indirect costs were adequately recorded
and supported; the asset management system accurately identified and tracked personal and real
property with regard to acquisition, maintenance, control, and disposal; and the State had
adequate assent legislation in place

       •   Costs of $11,138 were questioned because supporting documentation was not
           provided for hours worked for volunteer in-kind contributions ($9,526), and for an
           expenditure of $1,612.

       •   The Commission did not report program income of $346,872.

       •   The Commission did not account for and report as program income the value of work
           provided by lessees in lieu of rental payments.



                                               2
       The Commission and the FWS responded to a draft of this report on September 30, 2003.
Based on the Commission and the FWS responses, we deleted two findings. Based on the
Commission’s further responses, we modified the other findings and recommendations as
necessary to clarify the issues and to incorporate any additional information provided. We have
included the Commission’s responses after our recommendations to resolve each finding.

A. Questioned Costs

        1. In-Kind Contributions. The Commission claimed in-kind contributions under an
Aquatic Education Program grant (F-82-E-13) for accumulating volunteer hours without
documentation to support the hours claimed. The amount of unsupported costs is $9,526. The
program coordinator stated that two volunteer instructors claimed to work about one hour each
day throughout the year to develop and coordinate a one-day event that included fishing clinics
for children and adults and other events for handicapped and veterans groups. The only
documentation to indicate the hours worked was the Aquatic Education Program Instructor’s
Activity Report for the day of the event showing 300 hours for the head instructor and 300 hours
for the volunteer instructor.

        Matching or cost sharing requirements, as described in 43 CFR § 12.64 (a)(2), may be
satisfied by the value of third party in-kind contributions applicable to the grant period. 43 CFR
§ 12.64(b)(6) requires that third party in-kind contributions used as a cost sharing or matching
requirement must be verifiable from the grantee’s records. In addition, to the extent feasible,
volunteer services should be supported by the same methods used to support regular personnel
costs.

       The unsupported amount of $9,526 consists of the grant agreement hourly rate of $15.877
applied to the 600 hours claimed.

Recommendation

       We recommend that the FWS:

       a. Resolve the $9,526 of unsupported costs associated with Grant F-82-E-13.

        b. Ensure that the Commission verifies the accuracy of volunteer instructor hours claimed
for in-kind contributions, and maintains adequate supporting records for those contributions.

Commission Response

        The Commission responded that it would continue to verify and use volunteer hours only
within the grant period as match. In addition, the Commission stated that one instructor logged
300 hours under Grant F-82-E-13 and another 300 hours under Grant F-82-E-14 for preparation
and travel hours for an event held at the end of June each year. The Commission stated that
while there was not adequate documentation for all of the hours under Grant F-82-E-13, there
were instructor logs to account for the hours charged under Grant F-82-E-14. The Commission




                                                3
added that there was unused match of $20,923 for both Grants and no excess Federal funds were
reimbursed.

Office of Inspector General Comments

        The finding pertained to two instructors (the head instructor and a volunteer instructor)
who claimed to work 300 hours each on the day of the event, June 24, 2000, as identified on the
Instructor’s Activity Report. The 600 hours were charged to Grant F-82-E-13. None of the
hours in question here were charged to Grant F-82-E-14. Only one time and attendance report
for June 24, 2000, was used to support the 300 hours claimed for each instructor. Accordingly,
FWS should resolve the finding and implement the recommendations.

         2. Expenditure Testing. Our testing of 99 disbursement transactions and journal
entries, totaling $2.9 million, identified four documents totaling $70,952 (Federal share $53,214)
for which the State of Nebraska Department of Administrative Services (Department) was
initially unable to provide supporting documentation. Subsequently, the Department provided
supporting documentation for three of the transactions totaling $69,340. The remaining
transaction for $1,612 (Federal share $1,209) is for a disbursement under Grant F-86-D-13 and
continues to be classified as an unsupported cost.

Recommendation

       We recommend the FWS resolve the unsupported costs of $1,612 (Federal share $1,209)
claimed under Grant F-86-D-13.

Commission Response

       The Commission stated that the $1,612 remains unsupported.

Office of Inspector General Comments

       The Commission concurs with the finding. Accordingly, FWS should resolve the finding
and implement the recommendation.

B.   Additional Findings
       1. Program Income. During the audit period, the Commission did not report $346,872
of program income from crops raised on Wildlife Management Areas (WMAs) operated and
maintained through Federal Assistance Grants FW-21-D-2, FW-21-D-3, and FW-21-D-4.
Overall, crop program income from these three WMAs during the audit period was $490,141
($234,891 in State fiscal year 2001 and $255,250 in State fiscal year 2002), but the Commission
reported crop program income of only $143,269 for the two-year period.

        Program income is defined in 43 CFR § 12.65 (b) as gross income received by a grantee
directly generated by a grant-supported activity during the grant period. Program income
includes income from the sale of commodities [43 CFR § 12.65 (a)], and crops are considered
commodities. Income from the sale of crops, or the value of crops raised on WMAs, if provided


                                                4
to the Commission in kind instead of in cash, is considered program income. Program income
should be reported in grant proposals and on each grant’s Financial Status Reports (SF-269s);
and, unless otherwise specified, program income should be deducted from total outlays reported
on the SF-269s.

        A Wildlife Division employee provided us with a document titled “Federal income and
expenses on WMA’s.” According to this document, expenses and income associated with crops
that will be harvested and sold should be coded as “State” instead of “Federal.” We concluded
that the policy and practice of at least one employee was to exclude crop income from program
income on the WMA operation and maintenance grants. In addition, it appears that it was also a
practice of at least one employee to exclude the costs associated with crop lease activities from
Federal Assistance grant reimbursement claims.

        As a result, the Commission did not report $346,872 of program income derived from
crop agreements on three grants (Grants FW-21-D-2, FW-21-D-3, and FW-21-D-4). We did not
identify the dollar amount associated with each grant.

Recommendations

       We recommend that the FWS:

       a. Resolve the $346,872 of unreported program income.

        b. Instruct the Commission to develop policies and implement practices to identify and
report all program income and expenses on grants for the operation and maintenance of wildlife
management areas.

Commission Response

        The Commission adopted a policy excluding crop income and expenses from the
operation and maintenance of Grants W-21-D-3 and W-21-D-4, and received approval of this
policy from the FWS Region 6 office. As a result, income from the sale of the commodities was
not credited to Federal Assistance.

Office of Inspector General Comments

        The project description for the Grants states that some income-producing activities are
expected to occur as a byproduct associated with achieving project objectives. It also stated that
the activities would include the sale of commodities such as small grains. We believe that the
Commission should disclose the types of activities expected to occur on WMA’s and report the
revenue generated from those activities as program income. We recommend that FWS resolve
the finding and implement the recommendations.




                                                5
         2. Conservation Lease Accounting. The Commission awarded crop and pasture leases
that contained both rental and work terms. The rental terms represented what the lessee paid for
the right “to crop, hay, or graze” on Commission lands. The work terms represented tasks
(e.g., establish food plots, mowing, plant native grass, maintain an irrigation ditch) that the lessee
performed for the benefit of Commission lands. The lessee received credit for the value of the
work applied against the rental owed. We found that the Commission was not adequately
disclosing anticipated rental income and work terms from leases in its grant applications and not
reporting the value of the work completed on its SF-269s as program income.

       The Commission practice was to make accounting entries for the amount collected,
generally rental income less work credits. However, we identified $346,872 of unreported
program income in finding B.1 above which may be understated because of netting the value of
work completed against the amount of lease rental owed.

        Program income is defined in 43 CFR § 12.65 (b) as gross income received by a grantee
directly generated by a grant supported activity, or earned only as a result of the grant agreement
during the grant period. We are unable to determine the total cost to operate and maintain
WMAs because accounting entries were not made for all expenses. Total cost information is
needed to adequately plan, budget and evaluate programs and projects.

Recommendation

        We recommend that FWS require the Commission to adopt procedures to report total
gross income generated by program activity and any reductions to income on its grant proposals
and its Financial Status Reports.

Commission Response

        The Commission stated that the current practice is to include the value of rental and work
items agreed to in the lease and will determine a way to track lease and work item values in the
grant records. Leases will identify the value of the lease, work items performed, and supporting
information used to establish the value of the work items. As exchanges are completed, the
Division of Federal Aid will be provided documentation identifying that the exchange agreed to
in the lease has be satisfied (or partially satisfied) and the monetary value of the lease is reported

Office of Inspector General Comments

       The Commission agreed with the recommendation and we consider the action
appropriate. FWS should sustain the finding and implement the recommendation.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by April 12, 2004, to the recommendations included in this report. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation. If you have any questions regarding this report,
please contact me or Mr. Lawrence Kopas, Audit Team Leader, at (703) 487-5345.

cc:   Regional Director, Region 6
       U.S. Fish and Wildlife Service


                                                  6
                                                                 APPENDIX 1



         NEBRASKA GAME AND PARKS COMMISSION
        FINANCIAL SUMMARY OF REVIEW COVERAGE

  Grant       Grant       Costs        Questioned Costs   Federal
 Number      Amount      Claimed   Exceptions Unsupported Share Notes
F-6-B-1        $50,000   $25,429
F-6-B-2         50,000    18,673
F-75-R-18      245,000   179,610
F-75-R-19      190,300   190,282
F-75-R-20      159,260    64,067
F-77-R-15       20,000    20,000
F-82-E-13      528,200   168,785                     $9,526            1
F-82-E-14      664,428   184,913
F-82-E-15      585,916     9,849
F-84-D-12      490,650   268,181
F-84-D-13      501,750   256,801
F-84-D-14      483,460   100,416
F-86-D-13      835,208   500,164                     $1,612   $1,209   2
F-86-D-14      821,892   821,892
F-86-D-15    1,143,876   271,715
F-87-R-12      458,000   371,634
F-87-R-13      462,000   460,093
F-87-R-14      476,000    49,251
F-112-R-6      184,208   126,038
F-112-R-7      120,200    67,593
F-114-B-2       61,100    52,346
F-115-B-2      250,000   114,796
F-118-R-3      114,572    83,506
F-118-R-4      108,643    79,777
F-118-R-5       52,671     1,589
F-123-B-3       74,526     2,045
F-126-R-4      100,740    15,509
F-126-R-5       74,740    27,496
F-129-DB-1     467,000    61,548
F-129-DB-2   1,377,500   292,010
F-130-D-1    1,751,792   906,045
F-131-D-1      830,000   198,971
F-132-B-1       62,000     7,725



                                   7
                                                               APPENDIX 1


  Grant       Grant       Costs          Questioned Costs   Federal
 Number      Amount      Claimed     Exceptions Unsupported Share Notes
F-133-R-2      142,635      90,608
F-133-R-3      139,925      88,135
F-137-B-1      207,855     151,040
F-138-B-1      246,850     224,833
F-139-DB-1      75,000         480
F-139-DB-2     800,000       1,239
F-140-B-1      213,660     171,844
F-141-R-1      194,400     135,000
F-141-R-2      194,400     135,000
F-142-B-1       94,300      75,662
F-143-B-1      255,830     209,711
F-144-B-1      120,000      90,173
F-148-B-1      213,000       5,386
F-149-O-1       72,288      72,288
F-155-R-1       65,347       2,574
FW-6-C-60      200,000     168,762
FW-6-C-61      185,000     152,863
FW-12-T-27     105,000      87,711
FW-12-T-28     110,000      79,693
FW-15-L-52   1,310,000     871,820
FW-16-D-23     177,000       1,048
FW-16-L-24     182,000     182,000
FW-16-L-25     189,500     184,850
FW-19-T-15     101,951      41,565
FW-19-T-16     114,274      41,697
FW-21-D-2    2,942,290     919,209
FW-21-D-3    2,575,071   1,948,822
FW-21-D-4    1,997,033     928,735
W-15-R-57      820,000     747,487
W-15-R-58      535,050     535,050
W-15-R-59      615,425     169,092
W-40-E-27      382,664     189,531
W-40-E-28      389,063     350,898
W-40-E-29      493,370     106,671
W-41-T-26      618,000     223,665
W-41-T-27      340,000     340,000
W-78-L-30      283,500     283,336



                                     8
                                                                                 APPENDIX 1


       Grant         Grant          Costs           Questioned Costs   Federal
      Number        Amount         Claimed      Exceptions Unsupported Share Notes
    W-78-L-32        168,000        162,567
    V-2-1             56,000         15,973
                 $31,721,313 $16,185,767                          $11,138    $1,209

Notes:

       1. Questioned costs that pertain to the Aquatic Education Program’s in-kind hours that
were unsupported (see Questioned Costs, 1. In-Kind Contributions)

        2. We classified this amount as unsupported because documentation was not provided
for the transaction (see Questioned Costs, 2. Expenditure Testing).




                                               9
                                                  APPENDIX 2


NEBRASKA GAME AND PARKS COMMISSION
     SCHEDULE OF SITES VISITED


 Headquarters, Lincoln, Nebraska
 District I Office, Alliance, Nebraska
 Ponderosa Wildlife Management Area
 Peterson Wildlife Management Area
 Fort Robinson State Park
 Gilbert-Baker Wildlife Management Area
 District IV Office, North Platte, Nebraska
 Cedar Valley Wildlife Management Area
 North River Wildlife Management Area
 Medicine Creek Wildlife Management Area
 Medicine Creek Reservoir State Recreation Area
 Red Willow State Recreation Area
 Red Willow Wildlife Management Area
 District V Office, Lincoln, Nebraska
 Wagon Train Wildlife Management Area
 Wagon Train State Recreation Area
 Branched Oak Wildlife Management Area
 Branched Oak State Recreation Area
 Branched Oak Wildlife Shop
 Calamus Hatchery, Burwell, Nebraska
 AK-SAR-BEN Aquarium, Gretna, Nebraska




                             10
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
